 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




   Prince George’s County, Largo, MD, Generally Did
   Not Administer Its HOME Program in Accordance
              With Federal Requirements




2012-PH-1011                                 August 3, 2012
                                                        Issue Date: August 3, 2012

                                                        Audit Report Number: 2012-PH-1011




TO:            Michael Rose, Director, Office of Community Planning and Development,
                Washington, DC, Field Office, 3GD

               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       Prince George’s County, Largo, MD, Generally Did Not Administer Its HOME
               Program in Accordance With Federal Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of Prince George’s County’s HOME
Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                           August 3, 2012
                                           Prince George’s County, Largo, MD, Generally Did Not
                                           Administer Its HOME Program in Accordance With
                                           Federal Requirements



Highlights
Audit Report 2012-PH-1011


 What We Audited and Why                    What We Found

We audited Prince George’s County,         The County generally did not administer its Program in
MD’s administration of its HOME            accordance with U.S. Department of Housing and
Investment Partnerships Program as         Urban Development (HUD) requirements and
part of our annual audit plan. Our         guidelines. It did not ensure that three of its four
objective was to determine whether the     active housing development organizations were
County properly administered its           eligible and operating in compliance with Program
Program by ensuring that its community     requirements. It also improperly committed Program
housing development organizations          funds and could not show that it followed requirements
were eligible and complied with            related to Program funds it provided for rental,
Program requirements, providing rental,    downpayment and rehabilitation assistance.
home ownership, and rehabilitation
assistance in accordance with              These problems occurred because County staff
requirements and implementing              overlooked Program requirements and County officials
sufficient controls to ensure the          mismanaged the Program. Also, the County failed to
appropriate use of Program funds.          perform monitoring according to Program
                                           requirements. As a result, it made approximately $2.4
 What We Recommend                         million in ineligible disbursements and could not
                                           properly account for $1.3 million in disbursements.
                                           The County also had about $4.7 million in excess,
We recommend that the Director of          improperly committed, or underused Program funds.
HUD’s Washington, DC, Office of
Community Planning and Development
require the County to (1) repay the
Program $2.4 million it spent on
ineligible expenses, (2) provide support
for $1.3 million in expenses or repay
the unsupported amount to the Program,
(3) reprogram $4.7 million in Program
funds as appropriate for eligible
Program activities and to improve its
administration of the Program, and (4)
implement procedures to ensure that
Program funds are disbursed and used
in compliance with applicable
requirements.
                            TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding 1: The County Generally Did Not Administer Its HOME Program in
      Accordance With Federal Requirements                                     5

Scope and Methodology                                                          19

Internal Controls                                                              21

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use           23
B.    Auditee Comments and OIG’s Evaluation                                    24




                                            2
                      BACKGROUND AND OBJECTIVE

The HOME Investment Partnerships Program was created under Title II of the Cranston-
Gonzalez National Affordable Housing Act, as amended, and is regulated by 24 CFR (Code of
Federal Regulations) Part 92. The Program provides formula grants to States and localities that
communities use - often in partnership with local nonprofit groups - to fund a wide range of
activities that build, buy, or rehabilitate affordable housing for rent or home ownership or
provide direct rental assistance to low-income people. It is the largest Federal block grant to
State and local governments designed exclusively to create affordable housing for low-income
households. Participating jurisdictions may choose among a broad range of eligible activities,
using Program funds (1) to provide home purchase or rehabilitation financing assistance to
eligible homeowners and new home buyers; (2) to build or rehabilitate housing for rent or
ownership; or (3) for “other reasonable and necessary expenses related to the development of
non-luxury housing,” including site acquisition or improvement, demolition of dilapidated
housing to make way for a Program-assisted development, and payment of relocation expenses.

As a participating jurisdiction or grantee, Prince George’s County administers its Program
through its Department of Housing and Community Development. The County received the
following Program grants from HUD over a 9-year period:

                                 Fiscal year       HOME funds
                                                      received
                                    2002           $ 2,767,000
                                    2003             3,261,245
                                    2004             3,730,029
                                    2005             3,224,106
                                    2006             2,966,867
                                    2007             2,957,752
                                    2008             2,829,688
                                    2009             3,120,592
                                    2010             3,104,366
                                    Total          $27,961,645

HUD deobligated more than $2.1 million of the County’s 2009 Program funds because of its
failure to meet the expenditure deadline.

Jack Johnson served as the county executive from 2002 through 2010. In February 2011, he was
indicted for soliciting and accepting things of value in exchange for providing and agreeing to
provide favorable official action for and on the behalf of developers and other favored
contractors. He pled guilty in May 2011, and in December 2011 he was sentenced to about 7
years in Federal prison. James Johnson, the former director of the County’s Department of
Housing and Community Development, was also involved in the conspiracy and pled guilty in
January 2011. James Johnson served as the housing director from November 2009 until
December 2010. He had served as the acting housing director from October 2008 until
November 2009. James Johnson was sentenced to 37 months in prison. Rushern Baker became

                                               3
the county executive, effective November 2010, and Eric Brown became the housing director in
July 2011.

The grantee spends its Program funds on the following major programs and activities:

   •   Homeowner Rehabilitation Program
   •   Homebuyer activities
   •   Multifamily Rental Housing Construction and Rehabilitation Program
   •   Community housing development organizations

In addition, 10 percent of the Program funds are authorized for administrative costs.

Our objective was to determine whether the County properly administered its Program by
ensuring that its community housing development organizations were eligible and complied with
Program requirements, providing rental, home ownership, and rehabilitation assistance in
accordance with requirements and implementing sufficient controls to ensure the appropriate use
of Program funds.




                                                4
                                  RESULTS OF AUDIT


Finding: The County Generally Did Not Administer Its HOME Program
in Accordance With Federal Requirements
The County generally did not administer its Program in accordance with HUD requirements and
guidelines. It did not ensure that three of its four active housing development organizations were
eligible and operating in compliance with Program requirements. It also improperly committed
Program funds and could not show that it followed requirements related to Program funds it
provided for rental, downpayment, and rehabilitation assistance. These problems occurred
because County staff overlooked program requirements and County officials mismanaged the
Program. Also, the County failed to perform monitoring according to Program requirements. As
a result, it made approximately $2.4 million in ineligible disbursements and could not support
$1.3 million in disbursements. It also had about $4.7 million in excess, improperly committed,
or underused Program funds.


 Development Organizations
 Were Ineligible

               The County awarded Program funds to three community housing development
               organizations that did not meet eligibility requirements. The three organizations -
               Roots of Mankind Corporation, Omega Gold Development Group, and Kairos
               Development Corporation - did not meet the definition of a community housing
               development organization provided by regulations at 24 CFR 92.2.

               According to the regulations, such an organization must have among its purposes the
               provision of decent housing that is affordable to low-income and moderate-income
               persons, as evidenced in its charter, articles of incorporation, resolutions, or by-laws.
               It must have specific standards of financial accountability, a demonstrated capacity
               for performing activities assisted with Program funds, and a history of serving the
               community within which housing to be assisted with Program funds is to be located.
               It also must maintain accountability to low-income community residents by (1)
               maintaining at least one-third of its governing board’s membership for residents of
               low-income neighborhoods, other low-income community residents, or elected
               representatives of low-income neighborhood organizations; and (2) providing a
               formal process for low-income program beneficiaries to advise the organization in
               its decisions regarding the design, siting, development, and management of
               affordable housing. HUD’s Office of Community Planning and Development
               (CPD) Notice CPD-97-11, attachment A, mirrors these requirements.

               The audit evidence showed that the three development organizations did not meet
               the eligibility requirements shown in table 1 below.


                                                  5
                   Table 1
                                                                        Development organization
                                                                       Roots of Omega
                     Eligibility requirement not met                   Mankind   Gold     Kairos 1
                     Governing documents indicate purpose
                     to provide decent affordable housing                   X                    X
                     Documentation of compliance with
                     financial accountability standards at 24
                     CFR 84.21                                              X                    X
                     Demonstrated capacity to complete
                     activities assisted with Program funds                                      X
                     History of serving in community where
                     Program-assisted projects are to be
                     located                                                X            X
                     One-third of board membership reserved
                     for representatives of low-income
                     residents                                              X            X       X
                     Formal process for low-income
                     beneficiaries to provide input on
                     affordable housing                                     X                    X

                   In the case of Roots of Mankind, aside from not meeting eligibility requirements,
                   its receipt of certification as a development organization was questionable
                   because in April 2011, its developer pled guilty to conspiracy to commit extortion
                   in connection with paying bribes to the County’s former executive and housing
                   directors.

    The County Awarded About
    $1.2 Million in Operating Funds
    to Ineligible Development
    Organizations

                   The County did not comply with or ensure compliance with Program
                   requirements related to development organizations. It awarded $50,000 in
                   operating funds to Roots of Mankind, which was not an eligible development
                   organization. It also awarded three operating grants totaling $100,000 to Omega
                   Gold between 2006 and 2008. In addition to failing to ensure Omega’s eligibility
                   as a development organization, it did not enter into an agreement with Omega for
                   housing to be developed, sponsored, or owned within 24 months of the funding as
                   required by regulations at 24 CFR 92.300(e). The County finally executed an
                   agreement with Omega Gold in March 2011 to develop a project. HUD canceled
                   the project in April 2012 because the County failed to draw funds for the project
                   within 12 months of the agreement in compliance with Program requirements.

1
    HUD determined that Kairos was ineligible during a monitoring review it performed in 2011.

                                                          6
           Therefore, Omega and Roots of Mankind were not eligible for the $150,000 in
           operating funds they received.

           In April 2011, HUD determined that Kairos did not meet eligibility requirements
           based on a monitoring review it performed. Also, Kairos failed to properly
           manage two predevelopment loans it received by including ineligible amounts for
           property acquisition and exceeding the Program limit for predevelopment
           expenses. As a result, in August 2011, HUD asked the County to repay about $1
           million in Program operating and set-aside funds that were provided to Kairos.
           However, as of April 2012, it had not repaid the funds.

The County Funded a $1.7
Million Project That Was Not
Completed


           In October 2009, the County executed a $1.7 million commitment agreement with
           Roots of Mankind to develop a project (Romwood Square) which involved
           renovating 11 existing single-family homes to be rented to eligible families and
           managed as affordable housing under regulations at 24 CFR 92.252. In addition to
           the organization being ineligible, the basis of the agreement was questionable
           because Roots of Mankind did not apply for the project funds until March 2010.
           Section II of the agreement stated that the County’s Department of Housing and
           Community Development had received, evaluated, and recommended approval for
           Roots of Mankind’s application for Program funds. Therefore, it was not clear what
           the County’s Housing Department reviewed before recommending approval of
           project development funds for Roots of Mankind.

           According to County files, the estimated project start and completion dates for
           Romwood Square were January 2010 and August 2010, respectively. Roots of
           Mankind selected contractors and requested and received about $1.2 million in July
           2010 to cover acquisition costs and developer fees for the project. However, our
           onsite visit during the audit disclosed that no renovations had been completed and
           the properties were vacant. There were several signs of neglect or abandonment
           including damaged foundation, debris caused by a broken storm door, a fallen tree,
           damaged roofing, and overgrown grass or plants as shown in the pictures below.




                                            7
Foundation wall in need of repair at property 15200.




Debris from broken storm door at property 15204.




                                        8
Fallen tree at property 15205. This property also had a broken window that is not visible in the
picture.




Evidence of abandonment at property 15205.




                                         9
Damaged roof at property 15207.




Overgrown grass and weeds at property 15208.




                                     10
                 Program regulations incorporated into HUD HOMEfires 2 Volume 3, Number 5,
                 require that construction or rehabilitation related to Program-funded projects be
                 reasonably expected to start within 12 months of fund commitment. Although the
                 County expected the project to start about 2 to 3 months after the agreement was
                 executed and completed 8 months later, we found no evidence to show that it
                 diligently monitored and followed up with Roots of Mankind to ensure the start and
                 completion of the project. A letter in the County’s files showed that it met with
                 Roots of Mankind in April 2011 (more than a year and a half after Program funds
                 were committed) to discuss its lack of progress on the project. The County
                 requested that Roots of Mankind provide a proposal by April 22, 2011, to show its
                 intentions for completing the project. The County also inspected the project in June
                 2011, at which point it noted that the grass was overgrown. County records stated
                 that Roots of Mankind was issued a citation and asked to address the violation
                 within 10 days. Roots of Mankind did not provide the requested proposal. Also,
                 there was no documentation to show that it addressed the citation or that the County
                 performed other project reviews or inspections.

                 The County said that it would take legal steps to terminate funding for the project
                 and recover the $1.2 million it provided for project acquisition costs. It also said that
                 it would reprogram the remaining committed funds of about $464,000 to other
                 eligible projects. The recovery of the $1.2 million and the invalidation of the
                 remaining committed funds would increase the County’s risk of not meeting the
                 deadline to commit the funds (commitment shortfall). Also, the recovery of the $1.2
                 million would increase the County’s risk of not disbursing the funds by the
                 mandated deadline (disbursement shortfall). Any fund shortfalls would be subject to
                 potential recapture by HUD.

    The County Improperly
    Committed Funds in HUD’s
    Information System


                 HUD requires grantees to enter fund commitments into its Integrated
                 Disbursement and Information System. HUD uses the information system to
                 monitor compliance with Program requirements for committing funds. The
                 County improperly committed Program funds in seven cases related to
                 development organization and downpayment assistance activities in HUD’s
                 information system. It did not correctly commit predevelopment loan funds for
                 two development organization activities known as Livingston Forest and Singer
                 Building. According to chapter 12 of HUD’s information system training manual,
                 the funds should have been classified with a specific code to identify them in the
                 system and initially funded only with the approved loan amounts. However, in
                 both cases, the County did not classify the activities with the specific required
                 code. It also funded both activities with the entire amount of the related
2
 HOMEfires is the official policy newsletter of the HOME Program. Each newsletter answers a specific policy
question related to the Program.

                                                      11
                   commitment agreements instead of just the funds for the loans as shown in table 2
                   below.

                   Table 2
                                              Correct
                                            commitment
                                             (approved           Adjustments 3 Committed
                                  Committed     loan    Excess   to committed    funds
                     Project        funds     amount) commitment     funds      balance
                   Livingston
                   Forest         $1,900,000      $400,000       $1,500,000       $1,900,000       $        0
                   Singer
                   Building         1,300,000       235,500       1,064,500          558,182           741,818
                   Total          $3,200,000      $635,500       $2,564,500       $2,458,182       $741,818

                   As shown in the table above, the County unnecessarily overcommitted about $2.5
                   million for the predevelopment loans. The projects related to the predevelopment
                   activities were later determined to not be feasible; therefore, the County
                   unnecessarily tied up Program funds when it made excess commitments for the
                   activities. One of the activities had a remaining balance of about $741,800, which
                   would be funds available for other eligible activities or projects. However, the
                   County runs the risk of losing these funds to recapture if it does not draw them by
                   the statutory September 26, 2012, deadline.

                   In two other cases, the County improperly committed $1.8 million for development
                   organization activities known as Bradbury Homes and HIP Homeownership
                   Opportunities. It committed the funds without properly executing related written
                   agreements as required by regulations at 24 CFR 92.2(2), which provide that a
                   commitment for a specific project must be supported by an executed agreement
                   under which Program funds will be provided for an identifiable project. HUD
                   guidance in HOMEfires Volume 1, Number 6, also reflects this requirement, and
                   adds that no Program funds can be committed for a rental or home ownership project
                   until address information is available. HUD later canceled the activities in
                   accordance with regulations at 24 CFR 92.502(b)(2) because the County failed to
                   draw funds within 12 months of the commitments.

                   The County also did not properly commit and set up three downpayment assistance
                   activities. It committed about $3.2 million for the activities without executing
                   related written agreements for identifiable projects or properties as required.
                   According to HUD HOMEfires Volume 9, Number 2, a project or subgrant should
                   not be set up in HUD’s information system before the execution of a legally binding
                   written agreement to commit the funds. In addition, Volume 1, Number 6, states
                   that no Program funds can be committed for a rental or home ownership project until
                   address information is available and most first-time home buyer assistance cases

3
    Adjustments to committed funds represent supported draws and County reductions of committed amounts.

                                                        12
                would be considered separate projects and should be separately recorded in the
                information system.

                For one activity, the County committed $800,000 in 2005; however, it did not
                execute the related written agreement until 2009 and did not separately record the
                individual cases for the activity. The County drew $280,000 of the funds committed
                and then concluded that the activity was not feasible because of declining real estate
                conditions. The remaining $520,000 represents excess committed funds. For the
                other two activities, the County had about $2.4 million in commitments with no
                related executed agreements for identifiable properties recorded as separate
                activities.

                The County needs to work with HUD to correct system entries as necessary and
                properly account for $3.6 million4 in excess or improperly committed funds.

    The County Could Not Account
    for $1.2 Million in Assistance
    for Rental Projects


                The HOME Program imposes an affordability period on projects assisted with
                Program funds to ensure that the projects provide long-term affordable housing.
                The County did not ensure that three subrecipients awarded $1.2 million for rental
                projects complied with Program affordability requirements on property standards
                or tenant income. According to regulations at 24 CFR 92.504(d), during the
                period of affordability, the County must perform onsite inspections of Program-
                assisted rental housing to determine compliance with the property standards
                requirements at 24 CFR 92.251 and to verify information submitted by property
                owners in accordance with requirements at 24 CFR 92.252. Information
                submitted by property owners would include information on tenant income.
                Therefore, verification of the information is key to ensuring that Program income
                eligibility requirements were met.

                Program regulations require monitoring at least every 3 years for projects
                containing 1 to 4 units, biennially for projects containing 5 to 25 units, and
                annually for projects containing 26 or more units. The 3 rental projects had
                between 4 and 31 units; however, the County could not provide documentation to
                show that it monitored them according to Program regulations. As a result, there
                was no assurance that Program requirements were met for the rental projects, and
                $1.2 million in Program funds is unsupported.




4
 Approximate sum of excess or improperly committed funds in HUD’s information system ($741,818 + $520,000 +
$2,380,661= $3,642,479)

                                                    13
The County Could Not Account
for $86,575 in Project Expenses

            The County lacked adequate supporting documentation for $86,575 in project
            expenses it charged in relation to providing downpayment assistance.
            Regulations at 24 CFR 92.508(a)(3)(ii) provide that grantees must maintain
            records on the source and application of funds for each project in accordance with
            24 CFR 85.20(b)(5), which states that grantees must follow applicable Office of
            Management and Budget (OMB) cost principles in determining the allocability of
            costs. Paragraph (b)(6) of the regulation further states that accounting records
            must be supported by appropriate source documents including canceled checks,
            paid bills, payroll and time and attendance records, contracts, etc. Also,
            according to regulations at 24 CFR 92.505(a), the requirements of 24 CFR 85.20
            and OMB Circular A-87 (2 CFR 225) apply to grantees.

            Regulations at 24 CFR 92.206(d)(6) state that staff and overhead costs directly
            related to carrying out a project may be charged to project costs. Also, HUD
            Notice CPD-06-01 requires that each project be individually charged for project
            costs and that purchases of office supplies be charged to administrative costs.

            The County charged $86,575 in salaries and office expenses as project-related costs
            under a downpayment assistance activity funded through its My HOME program.
            The County provided only a timesheet for an employee that it stated worked 100
            percent on the My HOME program; however, the timesheet did not break down the
            time spent on specific activities or projects within the program. The County
            provided only one timesheet because the remaining time sheets were similar to the
            one it provided. It stated that its time tracking system was not capable of providing a
            time breakdown by each individual activity. The total amount charged to the
            activity included about $3,300 in office supply expenses. Based on the requirements
            outlined above, the office supplies should have been charged to program
            administrative expenses and not to project-related costs. Therefore, the County
            should justify $86,575 charged to the downpayment assistance activity.

The County Could Not Account
for $37,760 in Funds Provided
for Rehabilitation Assistance

            The County failed to maintain adequate documentation to show that income
            eligibility requirements were met for a rehabilitation assistance case. It
            committed $37,260 in Program funds for a homeowner’s property rehabilitation.
            However, it did not provide adequate support for the family composition and
            income according to regulations at 24 CFR 92.203, which required that it
            determine the family’s income eligibility by determining the family’s annual
            income. The audit showed that the County had drawn $26,145, leaving $11,115
            remaining to be drawn. The County also failed to provide documentation to

                                              14
           explain why it provided $500 more than the rehabilitation cost for another case.
           The County should justify the $26,645 it spent on rehabilitation assistance.

County Staff Overlooked
Program Requirements and the
Program Was Mismanaged


           The audit deficiencies occurred partly because County staff overlooked Program
           requirements and prior management officials mismanaged the Program. During the
           audit, we interviewed six County staff members about their job functions,
           knowledge, and training. The job functions covered included certification of
           development organizations, project monitoring, administration of HUD’s
           information system, and income eligibility reviews. All six staff members said that
           they were aware of Program requirements, and three said that their work was
           subjected to supervisory review. Two of the staff members responsible for project
           monitoring indicated that they relied on their supervisor to provide information on
           projects to be monitored and they had not been directed to monitor the projects
           questioned.

           Since County staff members said they were aware of Program requirements, it
           appeared that they overlooked the requirements in certain instances. For example,
           with regard to the issue of the ineligible development organizations, a HUD-
           designed checklist covers the requirements that must be met before an organization
           is certified as a development organization. The County had its version of the
           checklist, which reflected all of the HUD requirements. The County would not have
           certified ineligible organizations if its staff had followed the checklist.

           Although County staff members interviewed stated they were aware of Program
           requirements, based on the audit evidence, some of the staff may not have received
           the training or guidance they needed to perform their job functions correctly. Three
           of the six staff members interviewed indicated that they had received some job
           training; however, they had no training certificates or other supporting records.
           Also, the information system entry errors made by County staff highlighted an area
           in which the staff needed training. County staff stated that the County did not have a
           process to track training. Because the County did not have a formal process for
           tracking staff training or developmental needs, it failed to identify or assess and
           address staff training needs.

           The County’s former executive and housing directors were convicted of accepting
           bribes in exchange for providing favorable official action for and on behalf of
           developers and other prospective contractors or subgrantees. This and the major
           deficiencies in the County’s administration of the Program show that the officials
           mismanaged the Program.




                                            15
The County Did Not Perform
Required Monitoring


             According to regulations at 24 CFR 92.504(a), the County must manage the day-to-
             day operations of its HOME program, ensure that Program funds are used in
             accordance with all program requirements and written agreements, and take
             appropriate action when performance problems arise. The regulations further
             provide that the use of subrecipients does not relieve the County of this
             responsibility and that the performance of each subrecipient must be reviewed at
             least annually. Based on these requirements and the status of its four active
             development organizations during the audit period (2002-2010), the County should
             have performed at least 29 monitoring reviews of the organizations; however, the
             audit evidence showed that County staff ignored Program requirements and did not
             monitor any of the organizations during the audit period.

             The County had over $615,000 in undisbursed Program administration funds. It
             should maximize the use of these available resources to improve the
             administration of its Program.

The County Acknowledged
Deficiencies and Requested
Technical Assistance From
HUD


             The County acknowledged the issues associated with its administration of the
             Program and generally agreed with the audit findings. During the audit, we
             requested feedback on the findings from the County’s housing director. He
             confirmed that the County lacked adequate controls and added that County staff had
             limited knowledge and understanding of the development process.

             Due to the problems associated with its administration of the Program, the county
             executive requested technical assistance from HUD. In February 2012, HUD
             executed an agreement for technical assistance and capacity building with the
             County. HUD plans to send a specialist to help the County manage its housing
             programs and other community revitalization efforts. According to the
             agreement, HUD will cover areas such as the HOME Program, the use of its
             information system, staff training, and monitoring.

Conclusion

             The County generally failed to administer its Program in accordance with
             applicable requirements and guidelines because its staff overlooked Program
             requirements and County officials mismanaged the Program. Also, the County
             failed to perform monitoring according to Program requirements. As a result,

                                             16
          three of its four active development organizations were ineligible and did not
          comply with Program requirements. Also, there was no assurance that income
          eligibility or property standards requirements were met for rental and
          rehabilitation projects.

          In addition, the County made approximately $2.4 million in ineligible
          disbursements and could not support $1.3 million in disbursements. Also, it had
          about $4.7 million in excess, improperly committed, or underused Program funds.
          These funds must be reprogrammed within the timeframes dictated by Program
          and Federal requirements. Failure to appropriately reprogram the funds will
          increase the risk of commitment or disbursement shortfalls for the County, which
          could potentially lead to HUD’s recapturing or deobligating the funds.

Recommendations

          We recommend that the Director of HUD’s Washington, DC, Office of
          Community Planning and Development require the County to

          1A.     Repay the Program $150,000 from non-Federal funds for operating funds
                  it disbursed to two ineligible development organizations.

          1B.     Repay the Program the $1,025,654 it was previously asked to repay for
                  funds disbursed to an ineligible development organization.

          1C.     Repay the Program $1,235,940 from non-Federal funds for funds
                  disbursed for a project that was acquired but not completed.

          1D.     Reprogram $464,060 in committed set-aside funds for other eligible
                  activities, thereby putting the funds to better use.

          1E.     Reprogram $3,642,479 from excess or improperly committed funds to
                  other eligible activities, thereby putting the funds to better use.

          1F.     Provide adequate documentation to show that affordability requirements
                  were met for three rental projects or repay the Program $1,272,325 from
                  non-Federal funds.

          1G.     Provide adequate documentation for $86,575 in salaries and office
                  expenses related to downpayment assistance activities or repay the
                  Program from non-Federal funds.

          1H.     Provide supporting documentation showing that income eligibility
                  requirements were met for the rehabilitation assistance case, and to




                                           17
                            support the excess rehabilitation funds spent or reimburse the Program
                            $26,645 5 in assistance funds provided from non-Federal funds.

                   1I.      Reprogram $11,115 in remaining funds to be drawn for the rehabilitation
                            assistance case to other eligible activities if the County cannot support
                            $26,145 in assistance funds it has already provided.

                   1J.      Identify at least annually its universe of program subrecipients,
                            development organizations, and applicable projects to be reviewed and
                            perform monitoring according to Program requirements.

                   1K.      Implement a process to track, evaluate, and address the training needs of
                            management and staff responsible for administering the Program.

                   1L.      Use its resources available of approximately $615,703 in administrative
                            funds to strengthen its administration of the Program.

                   1M.      Implement the technical assistance agreement with the County to ensure
                            that it receives the assistance it needs to run its Program in accordance
                            with requirements.




5
    Represents $26,145 in unsupported rehab assistance funds and $500 in unexplained excess rehab expenses.

                                                         18
                         SCOPE AND METHODOLOGY

We performed our onsite audit work at Prince George’s County’s office located at 9400
Peppercorn Place, Largo, MD, between August 2011 and March 2012. The audit covered the
period January 1, 2002, through December 31, 2010, but was expanded when necessary.

We relied in part on computer-processed data in HUD’s Integrated Disbursement Information
System. We did not perform a detailed assessment of the reliability of data; however, we
performed a minimal level of testing and found the data to be generally adequate for our
purposes. The testing entailed matching property data from the system to file documents. In
certain instances, the system data did not reconcile with related file documentation. In those
instances, we relied on the information from supporting documents in the Program case files.

To accomplish our audit objective, we

   •   Reviewed applicable HUD laws, regulations, and other HUD program requirements.

   •   Reviewed County documents, including but not limited to single audit reports of Federal
       awards programs, annual action plans, the consolidated annual performance evaluation
       report, the organizational chart, the employee listing, the chart of accounts, monitoring
       reports, grant agreements with subrecipients, and policies and procedures for its HOME
       program.

   •   Reviewed HUD’s monitoring reports on the County.

   •   Communicated with officials and employees of the appropriate HUD CPD division as
       well as officials and employees of the County.

   •   Performed site visits to two activities.

   •   Performed analytical procedures, which included reviewing

              HUD’s information system to obtain relevant data tables and reports, and
               applicable Program reports from HUD’s Website.

              Documentation on assistance provided for 12 of 297 downpayment cases and 1 of
               156 rehabilitation cases that were identified through filters in HUD’s information
               system to determine whether Program requirements were met. The cases
               identified were selected because the purchase price or after rehab value of the
               related property appeared to have potentially exceeded the allowed limit, and it
               appeared the minimum required investment had not been met.

              Support for about $1.4 million (97 percent) in draws related to expiring Program
               funds and other draws that were made between July and September of 2011. The
               draws included funds for downpayment and rehabilitation assistance, security

                                                  19
               deposits, and rental projects, and were identified by filtering Program draws from
               4,707 draws related to Community Planning and Development activities in
               HUD’s information system.

              Documentation for the County’s 5 largest draws out of 447 made between 1997
               and 2011 totaling $6 million.

              A universe of 18 open Program activities as of September 2011, and making
               selections for review based on risk indicators as follows:

                     Support for $280,000 in draws for seven downpayment assistance cases to
                      determine whether requirements for the minimum investment, income
                      eligibility, and property value were met. The draws were related to an
                      activity that was funded in 2005, but only had 35 percent of the funds
                      drawn as of September 2011.

                     Documentation related to three activities for which the County did not
                      enter project completion data into HUD’s information system within the
                      required timeframe.

                     Support for six development organization and rental housing activities
                      totaling $4.1 million. More than half of funded amounts had been drawn;
                      however, no related housing units had been reported in HUD’s
                      information system.

We reviewed eligibility and performance for three of the County’s four development
organizations identified through auditor-determined indicators in HUD’s information system and
reviewed correspondence and other information for the fourth organization which HUD had
determined to be ineligible. We also reviewed a sample of 11 of 40 completed projects to
determine whether the County monitored them as required. Five of the projects were selected
because they had more than 26 units each, meaning that the County was required to monitor
them at least annually based on Program requirements. The remaining six projects were
identified when a comparison of the County’s listing of projects with its listing of projects
monitored showed that they might not have been reviewed in compliance with Program
requirements.

The $4.7 million in funds to be put to better use reported represents excess, improperly
committed or underused funds. If the County implements the audit recommendations, these
funds will be available for use on eligible activities and to improve Program administration.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.



                                               20
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

               •      Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

               •      The County did not ensure that its development organizations were
                      eligible and operating in compliance with Program requirements.

                                                 21
•   The County did not properly manage and account for funds it provided for
    housing development activities as well as rental, downpayment, and
    rehabilitation assistance funds.

•   The County lacked adequate controls to ensure that it administered its
    program according to requirements.




                             22
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

       Recommendation          Ineligible 1/     Unsupported 2/    Funds to be put
           number                                                  to better use 3/
          1A                    $ 150,000
          1B                     1,025,654
          1C                     1,235,940
          1D                                                         $     464,060
          1E                                                             3,642,479
          1F                                        $1,272,325
          1G                                            86,575
          1H                                            26,645
          1I                                                                 11,115
          1L                                                                615,703
          Totals                $2,411,594          $1,385,545           $4,733,357

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the County implements our
     recommendations, $4.7 million in excess, improperly committed, or underused funds will
     be available for use on eligible activities and to improve Program administration.




                                               23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         24
Comment 1




Comment 2




            25
Comment 3

Comment 3




Comment 4




            26
Comment 4




            27
28
29
30
                         OIG Evaluation of Auditee Comments

Comment 1   Program regulations at 24 CFR 92.2(2) provide that a commitment for a specific
            project must be supported by an executed agreement under which Program funds
            will be provided for an identifiable project. Also, regulations incorporated into
            HUD HOMEfires Volume 3, Number 5, require that construction or rehabilitation
            related to Program-funded projects be reasonably expected to start within 12
            months of fund commitment. In addition, according to regulations incorporated
            into HOMEfires Volume 1, Number 6, funds cannot be committed to a project
            until a written agreement has been executed for the identifiable property(ies);
            therefore, no Program funds can be committed for a rental or home ownership
            project until address information is available.

            The County executed a conditional agreement and committed related funds for
            Bradbury Homes in March 2011. However, as of January 2012, Omega, the
            responsible development organization had not acquired the properties to be
            rehabilitated. Therefore rehabilitation was not started, and the committed funds
            were not drawn. In the case of the HIP Homeownership Opportunities project,
            the County executed a conditional agreement but did not identify the related
            properties as required by Program regulations.

            As stated in the audit finding, HUD canceled both projects in accordance with
            Program regulations when the County failed to draw Program funds within 12
            months of the fund commitments.

Comment 2   The $1.2 million in rental assistance funds questioned relates to the following
            three rental projects:

                   Parkway Terrace      $ 750,000
                   Malta Homes             319,325
                   Family Crisis Center    203,000
                   Total                $1,272,325

Comment 3   The County only provided a time record for one staff member for the period
            December 2010 to April 2011 because the remaining time sheets were similar to
            the one it provided. The tracking system the County implemented as of May
            2012 is not sufficient to properly account for staff time charges because it does
            not account for specific Program-funded projects or activities as required by
            Program regulations.

Comment 4   The County failed to provide evidence that it met Program income eligibility
            requirements for the property at 6512 Columbia Park Road. Since the County
            agreed that file documents did not include documentation verifying household
            composition and annual income, it should repay related Program funds drawn and
            reprogram the remaining committed funds. Also, although the County stated that
            file documents accounted for the value of the rehabilitation assistance totaling

                                             31
$37,165 it committed $37,260 for the activity. During the audit, the County
stated that the $95 difference represented an unused contingency, and that it
would be corrected in HUD’s information system. The County needs to take
action to complete the correction. In addition, since the County acknowledged
that its staff made a miscalculation that resulted in a $500 shortfall in the case of
the property at 9205 Crossbow Road, it should repay the funds to the Program.




                                  32
